12/28/20, 12:58 PM

21_ProofofService.jpeg 1,464x1,632 pixels

1

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Cindy Bauer

—PETITIONER _

(Your Name)
vs.
Edward McBroom et al

-RESPONDENT(S)

PROOF OF SERVICE
Cindy Bauer

, do swear or declare that on this date,
, 20 20
as required by U.S. Supreme Court Rule 29,1 have served
DfiCfimhor 28
(he enclosed MOTION FOR LEAVE TO PROCEED INFORMA PA UPERIS and PETITION FOR
A WRIT OF CERTIORARI on each parly to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each ofthem and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
See “List of Parties Served” Attached

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

December 28

,20 20

(Signature)

http://prose.flabarappellate.org/wp-content/uploads/2018/09/21_ProofofService.jpeg

Page 1 of 1

\

1

ATTACHMENT OF PROOF OF SERVICE
LIST OF PARTIES SERVED

Edward McBroom; Tim L. Bowlin; Keith Allard; Benjamin Graham; Joshua Cline;
Kevin G Cotter; Brock Allen Swartzle; Norm Saari; Hassan Beydoun, in their
individual capacities.
Cameron J. Evans (P47276)
Kevin Charles Majewski (P77781) Attorneys for Defendants-Appellees Brock Swartzle
and Norm Saari 950 W. University Drive, Ste 200 Rochester, Ml 48307
(248)468-1665
Gary P. Gordon (P26290)
Jason T. Hanselman (P61813) Dykema Gossett PLLC
Attorneys for Defendants-Appellees, Edward McBroom, Tim Bowlin, Hassan Beydoun
and Kevin Cotter 201 Townsend Street, Ste. 900 Lansing, Ml 48933
(517) 374-9011
Sarah Riley Howard (P58531) Pinsky, Smith, Fayette & Kennedy Attorneys for
Defendants-Appellees Keith Allard and Benjamin Graham 146 Monroe Center, NW, Ste
805 Grand Rapids, Ml 49503
(616) 451-8496

